U.S. Department of Labor


                                                                       EMPLOYMENT AND TRAINING
                                                                       ADMINISTRATION

                       Office of Inspector General—Office of Audit






                                                                       JOB CORPS NEEDS TO IMPROVE TIMELINESS OF
                                                                       AND ACCOUNTABILITY FOR MAINTENANCE
                                                                       REPAIRS AT ITS CENTERS




                                                                                           Date Issued:   December 7, 2012
                                                                                        Report Number:     26-13-002-03-370
U.S. Department of Labor                                     December 2012
Office of Inspector General
Office of Audit                                              JOB CORPS NEEDS TO IMPROVE TIMELINESS
                                                             OF AND ACCOUNTABILITY FOR

BRIEFLY…
                                                             MAINTENANCE REPAIRS AT ITS CENTERS

Highlights of Report Number: 26-13-002-03-370, issued        WHAT OIG FOUND
to the Assistant Secretary for Employment and Training.      Our audit found Job Corps did not always ensure center
                                                             maintenance deficiencies were repaired in a timely
WHY READ THE REPORT                                          manner, exposing students, staff, and visitors to
The Department of Labor’s (DOL) Employment and               potential safety and health hazards. This included 807
Training Administration (ETA) oversees the Office of         of 1,405 (57 percent) critical maintenance deficiencies
Job Corps (Job Corps), which administers and                 involving life, safety, and health issues not repaired for
manages the Job Corps program. Job Corps maintains           more than one year, and 718 maintenance deficiencies
125 Job Corps centers nationwide that are used by            that had been funded and not repaired for more than
approximately 60,000 students and 16,000 staff each          one year, totaling $29.5 million.
year.
                                                             We also found Job Corps did not effectively manage
Job Corps faces a number of challenges to keep its           maintenance funds and $32.9 million in unused funds
facilities safe and minimize health risks, including aging   were expired or approached expiration. This included
facilities and limited funds for repairs. However, these     $9.0 million in funds that expired and cannot be used to
challenges also underscore the importance to repair          incur new obligations and $23.9 million, which Job
maintenance deficiencies before conditions worsen or         Corps could not provide the information needed to
injuries occur, and when funds are available. During         determine the expiration date.
program years 2009-2011, Job Corps received, on
average, $108.3 million per year in appropriations to        Additionally, Job Corps did not accurately account for
pay for new center construction, rehabilitation of           the estimated deferred maintenance costs to repair
existing centers, land acquisitions, and necessary           maintenance deficiencies in DOL’s fiscal year
maintenance to keep its centers in acceptable                (FY) 2011 Financial Report. We estimated these costs
condition.                                                   totaled at least $202.3 million for FY 2011, an
                                                             understatement of at least $106.2 million for FY 2011.
This report discusses ways Job Corps can improve its
oversight of center maintenance repairs to ensure a          These conditions occurred because Job Corps did not
safe and healthy environment and allocated funds are         have an effective process to ensure maintenance
used before expiration.                                      deficiencies were addressed appropriately and timely,
                                                             and did not place sufficient emphasis on tracking and
WHY OIG CONDUCTED THE AUDIT                                  monitoring the status of obligated funds. We estimate
We conducted an audit to answer the following                $42.1 million would be put to better use if Job Corps
questions:                                                   improved these processes.

    To what extent did Job Corps’ management of              WHAT OIG RECOMMENDED
    center maintenance ensure: (1) repairs were              We recommended ETA require Job Corps to improve
    performed in a timely manner and safety and health       management processes for identifying, tracking,
    risks were minimized, and (2) allocated funds were       repairing, and funding repairs for maintenance
    spent effectively and efficiently?                       deficiencies; identify and timely use, or return to the
                                                             U.S. Treasury unused funds obligated for center
                                                             repairs; and determine and accurately report its total
READ THE FULL REPORT
                                                             deferred maintenance costs and repairs.
To view the report, including the scope, methodology,
and full agency response, go to:
                                                             In response to our draft report, ETA did not completely
                                                             agree with our conclusions. However, ETA did not
http://www.oig.dol.gov/public/reports/oa/2013/26-13-
                                                             provide any new information which changed our
002-03-370.pdf.
                                                             conclusions. ETA took corrective actions to address
                                                             three recommendations and will take action on the
                                                             remaining one.
                                           U. S. Department of Labor – Office of Inspector General




                       PAGE INTENTIONALLY LEFT BLANK






Job Corps Needs to Improve Timeliness of and Accountability for Maintenance Repairs at its Centers
                                                                     Report No. 26-13-002-03-370
                                                            U. S. Department of Labor – Office of Inspector General




Table of Contents



Assistant Inspector General’s Report ......................................................................... 1



Results In Brief.............................................................................................................. 2



Objective 1 — To what extent did Job Corps’ management of center maintenance


ensure repairs were performed in a timely manner and safety and health risks 

were minimized? ........................................................................................................... 4


         Finding 1 — Job Corps did not always ensure center maintenance 

            deficiencies were repaired in a timely manner and potential safety and 

            health hazards were minimized....................................................................... 5



Objective 2 — To what extent did Job Corps’ management of center maintenance


ensure allocated funds were spent effectively and efficiently? .............................. 13


         Finding 2 — Ineffective fiscal management allowed maintenance funds to 

            expire or approach expiration and deferred maintenance costs to be


            underestimated by $106.2 million.................................................................. 13



Recommendations ...................................................................................................... 18



Exhibits
         Exhibit 1 FY 2011 Estimated Deferred Maintenance Costs................................ 21


         Exhibit 2 Calculation of $42.1 Million in Funds Put to Better Use ....................... 23



Appendices
         Appendix A Background ..................................................................................... 27


         Appendix B Objectives, Scope, Methodology, and Criteria ................................ 29


         Appendix C Acronyms and Abbreviations .......................................................... 35


         Appendix D ETA Response to Draft Report ....................................................... 37


         Appendix E Acknowledgements ......................................................................... 47






     Job Corps Needs to Improve Timeliness of and Accountability for Maintenance Repairs at its Centers
                                                                          Report No. 26-13-002-03-370
                                           U. S. Department of Labor – Office of Inspector General




                       PAGE INTENTIONALLY LEFT BLANK






Job Corps Needs to Improve Timeliness of and Accountability for Maintenance Repairs at its Centers
                                                                     Report No. 26-13-002-03-370
                                                     U. S. Department of Labor – Office of Inspector General


U.S. Department of Labor                            Office of Inspector General
                                                    Washington, D.C. 20210




December 7, 2012

                               Assistant Inspector General’s Report



Ms. Jane Oates
Assistant Secretary
 for Employment and Training
200 Constitution Avenue, NW
Washington, D.C. 20210

The Office of Job Corps (Job Corps) maintains 125 Job Corps centers nationwide.
These facilities comprise 99 percent of the Department of Labor’s (DOL) real property
and are used by approximately 60,000 students and 16,000 staff each year. Job Corps
conducts condition assessment surveys at its centers and performs periodic
maintenance to keep these centers in acceptable condition. During fiscal years
(FY) 2009 through 2011, Job Corps estimated that up to 94.0 percent of the
approximately 3,800 buildings and structures at its centers were in good to excellent
condition; and that it would cost $96.1 million to return all of its constructed assets to an
acceptable condition. 1 During this same period, Job Corps also determined that 1,405
critical maintenance deficiencies involving life, safety, health, and environmental issues,
as well as building code violations, needed repairs.

We conducted an audit to answer the following questions:

        To what extent did Job Corps’ management of center maintenance
        ensure: (1) repairs were performed in a timely manner and safety and
        health risks were minimized, and (2) allocated funds were spent
        effectively and efficiently?

We conducted work at Job Corps and the Employment and Training Administration’s
(ETA) headquarters in Washington, DC; PB Dewberry’s (Job Corps’ engineering
support contractor) corporate office in Arlington, VA; and five Job Corps centers –
Delaware Valley (New York), Earle C. Clements (Kentucky), Edison (New Jersey), Gary
(Texas), and Woodstock (Maryland).

We interviewed management officials and staff; reviewed applicable laws, regulations,
policies, and accounting standards; reviewed applicable Job Corps’ processes and
controls; analyzed Job Corps’ center maintenance data for the last three fiscal years

1
 This information was reported in the unaudited Required Supplementary Information to the FY 2011 DOL Financial
Report.

     Job Corps Needs to Improve Timeliness of and Accountability for Maintenance Repairs at its Centers
                                                 1                        Report No. 26-13-002-03-370
                                                       U. S. Department of Labor – Office of Inspector General


(2009-2011); 2 performed walkthroughs of maintenance deficiencies; and conducted site
visits at the five centers, which included visual observations of outstanding deficiencies
and reviews of these centers’ safety and health inspections and committee meeting
minutes from February 2011 through February 2012.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives. Our objective, scope, methodology and criteria are detailed in
Appendix B.

RESULTS IN BRIEF

Job Corps faces a number of challenges to keep its facilities safe and minimize health
risks, including aging facilities and limited funds for repairs. However, these challenges
also underscore the importance to repair maintenance deficiencies before conditions
worsen or injuries occur, and when funds are available. We found that Job Corps did
not always ensure critical and funded maintenance deficiencies at its centers were
repaired in a timely manner exposing students, staff, and visitors to potential safety and
health hazards; and maintenance funds were allowed to expire without being used for
their intended purposes or other needed repairs. We estimated $42.1 million would be
put to better use if Job Corps improved its processes for ensuring maintenance repairs
are completed timely and maintenance funds are managed effectively. 3

Job Corps said its practice was to repair critical maintenance deficiencies in the year
they were identified. However, we found 57 percent (807 of 1,405) of the critical
maintenance deficiencies existing during FYs 2009 through 2011 were either not
repaired or took more than one year to repair. Of these, 202 were still outstanding at the
end of fiscal year 2011, while the 605 that had been repaired required an average of
2.4 years to repair. Furthermore, many of these repairs were funded by Job Corps and
still not performed timely, even though the Job Corps National Director issued a
directive in May 2007 requiring Job Corps and its center operators to perform them to
ensure the safety and well-being of students and to reduce the risk of higher remedial
costs. We identified $32.9 million in repairs that had been funded for more than one
year, but had not been performed or took over a year to perform. This included rusty
support beams and leaning power poles whose repairs were still outstanding more than
four years after they were funded.

We also found an estimated $9.0 million in Job Corps funds that expired and cannot be
used to incur any new obligations; and $23.9 million, which Job Corps could not provide
the information needed to determine the expiration dates. These funds either expired or
approached expiration. In total, $32.9 million should have been spent to perform

2
    Fiscal years 2009-2011 covered the periods from October 1, 2008, through September 30, 2011.
3
    See Exhibit 2 for details.

        Job Corps Needs to Improve Timeliness of and Accountability for Maintenance Repairs at its Centers
                                                    2                        Report No. 26-13-002-03-370
                                               U. S. Department of Labor – Office of Inspector General


intended repairs or repair other maintenance deficiencies within the funds’ 3-year period
of availability. Additionally, Job Corps did not accurately account for estimated deferred
maintenance costs and understated its deferred maintenance costs by at least
$106.2 million in the DOL’s FY 2011 Financial Report. Our estimates showed these
costs were closer to $202.3 million.

These conditions occurred because Job Corps did not have an effective management
process to ensure maintenance deficiencies were identified, tracked, and repaired
appropriately and timely. Job Corps also did not place sufficient emphasis on tracking
and monitoring the status of obligated funds to ensure they were spent as intended or
appropriately reallocated to address other maintenance deficiencies.

We recommend ETA require Job Corps to improve management processes for
identifying, tracking, repairing, and funding repairs for maintenance deficiencies; identify
and timely use, or return to the U.S. Treasury unused funds obligated for center repairs;
and determine and accurately report its total deferred maintenance costs and repairs.

ETA RESPONSE

In response to our draft report, ETA acknowledged that Job Corps’ processes for
identifying, tracking, and repairing maintenance deficiencies in a timely manner need
improvement and initiated corrective action. While ETA did not completely agree with
our conclusion that $23.9 million in construction, rehabilitation, and acquisition (CRA)
funds were either expired or approaching expiration, ETA acknowledged that Job Corps
allowed approximately $15.8 million in CRA funds to be canceled ($12.7 million) or
expire ($3.1 million). ETA also did not agree that improvements to its management
processes for monitoring and tracking the status of obligated maintenance funds were
needed because it considered the $15.8 million in cancelled or expired funds to be
insignificant. However, ETA adopted a new organizational structure to advance
improvement of its financial management processes. ETA will also ensure funds are
obligated and used in a timely manner and canceled funds are returned to the United
States Treasury.

ETA agreed to determine and accurately report its total deferred maintenance costs and
repairs in the DOL Financial Report for FY 2012. However, ETA asserted that its
reporting of $96.1 million in deferred maintenance costs for FY 2011 was consistent
with Federal financial reporting criteria applicable to the reporting period and was not
underreported by $106.2 million. As such, ETA believed that it correctly excluded $42.6
million in funded but not corrected deficiencies because the timeliness of these repairs
was not a deferred maintenance reporting issue; $55.7 million in repair backlog
deficiencies because it considered most of these programmatic deficiencies to improve
or enhance the quality of the learning and living environment; and $337,588 in unfunded
critical deficiencies because these were funded within Job Corps’ normal operating
cycle. ETA also asserted that it did not underreport $7.5 million, the difference between
the supporting detail provided by Job Corps and the amount reported.



    Job Corps Needs to Improve Timeliness of and Accountability for Maintenance Repairs at its Centers
                                                3                        Report No. 26-13-002-03-370
                                                   U. S. Department of Labor – Office of Inspector General


OIG CONCLUSION

We recognize the corrective actions taken in response to each of our recommendations,
but disagree with some of the assertions made in response to our draft report. Our audit
showed that ETA did not have an effective process in place to ensure available funds
were used appropriately before expiration and regularly recapture and reallocate
expiring CRA funds as claimed in their response. By its own estimates, Job Corps
allowed approximately $15.8 million to be canceled or expire. We do not believe this
amount is insignificant because the funds were not spent as intended or appropriately
reallocated to address other maintenance deficiencies, including its backlog of repairs,
which would help ensure a safer and healthier center environment. While ETA asserted
that it could have provided us the necessary data to show that $23.9 million in funds
were not expired or approaching expiration, no such data was provided throughout the
audit. As such, we affirm that improvements to ETA’s related management processes
were needed.

Statement of Federal Financial Accounting Standards (SFFAS) 6, as revised by SFFAS
40, defines deferred maintenance and repairs as maintenance and repairs that were not
performed when they should have been or were scheduled to be and which, therefore,
were put off or delayed to a future period. Consequently, we believe the repair costs
associated with the hundreds of funded deficiencies that were put off or delayed to
future periods ($42.6 million); backlog of repairs ($55.7 million), which were cited in Job
Corps’ CRA budget request to the Congress as having a direct impact on student
experience and achievement; and unfunded life safety deficiencies ($337,588), which
our audit showed have been put off or delayed, were covered under SFFAS 6 and
should have been included in Job Corps’ reported deferred maintenance. While SFFAS
40 was not effective until reporting periods beginning after September 30, 2011, earlier
implementation was encouraged. In addition to the exclusion of these amounts, detailed
information provided by Job Corps supported a cost estimate $7.5 million higher than
reported in DOL Financial Report for FY 2011. Consequently, we affirm our conclusion
that Job Corps’ deferred maintenance costs of $96.1 million were understated by an
aggregate of $106.2 million in the DOL Financial Report for FY 2011.

RESULTS AND FINDINGS

Objective 1 — To what extent did Job Corps’ management of center maintenance
              ensure repairs were performed in a timely manner and safety and
              health risks were minimized?

            Fifty-seven percent of critical maintenance deficiencies existing for at least
            a year were either not repaired or took more than one year to repair;
            $32.9 million funded for the repairs could have been put to better use,
            including $29.5 million that were not used at all. 4



4
    See Exhibit 2 for details.

        Job Corps Needs to Improve Timeliness of and Accountability for Maintenance Repairs at its Centers
                                                    4                        Report No. 26-13-002-03-370
                                                       U. S. Department of Labor – Office of Inspector General


Finding 1 — Job Corps did not always ensure center maintenance deficiencies
            were repaired in a timely manner and potential safety and health
            hazards were minimized.

Job Corps faces a number of challenges to keep its facilities safe and minimize health
risks, including aging facilities and limited funds for repairs. The average age of a Job
Corps facility is 42 years old, with the oldest over 80 years old. Many center facilities
were at one time abandoned by the military or dilapidated institutional facilities that Job
Corps rehabilitated. According to Job Corps, its construction needs have outpaced
appropriations even though its building systems are aging and in need of maintenance
and repairs. These challenges also underscore the importance to repair maintenance
deficiencies before conditions worsen or injuries occur, and when funds are available.

We found Job Corps did not always ensure critical and funded maintenance deficiencies
at its 125 centers were repaired in a timely manner. Specifically, 807 of 1,405
(57 percent) critical maintenance deficiencies tested involving life, safety, and health
issues were not repaired for more than one year. Of these, 202 were still outstanding at
the end of FY 2011 for an average of 2.2 years, while the 605 that had been repaired
required an average of 2.4 years to repair. Many of these repairs were funded by Job
Corps and still not performed timely even though Job Corps National Director issued a
directive in May 2007 to perform them to ensure the safety and well-being of students.
We identified $32.9 million in repairs that had been funded for more than one year, but
had not been performed or took over a year to perform. 5 These conditions occurred
because Job Corps did not have effective management processes in place to ensure
maintenance deficiencies were identified, tracked, and repaired appropriately and
timely. Delaying necessary maintenance and repairs exposes students, staff, and
visitors at these centers to potential safety and health hazards. Consequently, we
estimated $32.9 million would be put to better use if Job Corps improved its processes
to ensure maintenance repairs are completed timely.

Critical Maintenance Deficiencies Should be Repaired within One Year

DOL reported in its annual financial reports for FY 2009–2011 that Job Corps was
committed to the timely repair of life, safety, and health hazards at its centers; and that
critical maintenance deficiencies were to be funded and performed in the year identified.
Job Corps stated that, in practice, critical deficiencies are proposed for immediate
funding and addressed as soon as possible because of imminent life, safety, and health
hazards or conditions which violate building codes and may impact center operations.
Job Corps said that one year was not an established policy and that the repairs could
be completed in a few days to a year or longer. We used the one-year time frame cited
in DOL’s annual financial reports to evaluate the timeliness of repairs for critical
maintenance deficiencies.

Maintenance deficiencies were primarily identified by the Job Corps’ engineering
support contractor. The contractor conducts facility surveys at each center every three
5
    Ibid.

            Job Corps Needs to Improve Timeliness of and Accountability for Maintenance Repairs at its Centers
                                                        5                        Report No. 26-13-002-03-370
                                               U. S. Department of Labor – Office of Inspector General


years to assess the condition of buildings and structures; identify maintenance
deficiencies; provide recommendations and estimated repair costs; and determine the
amounts of deferred maintenance costs disclosed in the DOL’s annual financial reports.
Job Corps classifies the maintenance deficiencies based on levels of severity and
records the classification and facility survey results in a maintenance management
system database. Critical maintenance deficiencies address imminent life, safety, and
health hazards (Class IA) or code violations that may impact center operations if not
corrected (Class IIA).

Job Corps Did Not Always Repair Critical Maintenance Deficiencies in a Timely Manner

Our testing showed that Job Corps took years to repair hundreds of critical maintenance
deficiencies, if repairs were performed at all. We reviewed all 1,405 critical maintenance
deficiencies reported during FY 2009–2011 for timely corrective actions and found
57 percent, or 807, of these deficiencies went unrepaired for over a year and exposed
students, staff, and visitors to potential life, safety, and health hazards. Of these,
202 were still outstanding at the end of FY 2011 (September 30, 2011) on average for
2.2 years. These deficiencies included:

   •		 Non-code compliant sprinklers in three buildings at the Gainesville Job Corps
       Center. These deficiencies were identified in December 2003 and remained
       unrepaired as of September 30, 2011, for a total of 7.8 years.

   •		 Fire alarm system in a dormitory was not fully operational at the North Texas Job
       Corps Center. This deficiency was identified in October 2007 and remained
       unrepaired as of September 30, 2011, for a total of 3.9 years.

   •		 Fire alarm system in a dormitory was not fully operational at the Woodland Job
       Corps Center. This deficiency was identified in April 2008 and remained
       unrepaired as of September 30, 2011, for a total of 2.4 years.

   •		 Power tools lacked emergency shut-off switches at the Philadelphia Job Corps
       Center. This deficiency was identified in October 2008 and remained unrepaired
       as of September 30, 2011, for a total of 3 years.

   •		 Inadequate sprinkler coverage in a dormitory at the Iroquois Job Corps Center.
       This deficiency was identified in July 2010 and remained unrepaired as of
       September 30, 2011, for a total of 1.2 years.

Of the remaining 605 critical maintenance deficiencies that remained unrepaired for
over a year, Job Corps took an average of 2.4 years to repair. For example:

   •		 Inadequate numbers of fire alarm pull stations in the cafeteria at the Sierra
       Nevada Job Corps Center were identified in February 2003 and took 5.8 years to
       repair.


    Job Corps Needs to Improve Timeliness of and Accountability for Maintenance Repairs at its Centers
                                                6                        Report No. 26-13-002-03-370
                                                         U. S. Department of Labor – Office of Inspector General


       •		 The fire alarm system in a dormitory was not fully operational at the Oneonta Job
           Corps Center. This deficiency was identified in September 2005 and took 4 years
           to repair.

       •		 Assembly room doors lacked required panic hardware at the Brunswick Job
           Corps Center. This deficiency was identified in March 2007 and took 2.5 years to
           repair.
    Our test results are summarized in Table 1.

Table 1: 807 Critical Deficiencies Left Unrepaired for More than 1 Year
                                               Number of Critical Deficiencies
Number of Years            Outstanding for More           Took More than                                    Total
Left Unrepaired              than One Year as of         1 Year to Repair
                                       9/30/2011
1 – 2 Years                                   140                       341                                  481
2 – 3 Years                                    30                       147                                  177
3 – 4 Years                                    22                        47                                   69
More Than 4 Years                              10                        70                                   80
Total / Average Time to Repair     202 / 2.2 Years         605 / 2.4 Years                                   807
Source: OIG analysis of Job Corps data.

These 807 critical deficiencies were funded $4.3 million for repairs.

$29.5 Million Funded to Complete Maintenance Repairs were not Used

Job Corps identified the need to make more timely repairs in May 2007. At that time, the
Job Corps National Director issued a directive to all regional offices and centers
requiring Job Corps and its center operators to take “immediate action to repair funded
deficiencies in order to ensure a safe and healthy learning environment.” The directive
required the correction of all outstanding funded deficiencies within one year from
receipt of the directive. While this directive demonstrated Job Corps’ concern about
decreasing the repair time for funded deficiencies, actual efforts did not meet
expectations. We identified 718 maintenance deficiencies that had been funded and not
repaired for more than one year totaling $29.5 million (as of September 30, 2011),
including 395 outstanding deficiencies that were funded more than two years ago and
66 deficiencies funded prior to the May 2007 directive. 6 See Table 2 for details.




6
    See Finding 2 for our overall assessment of Job Corps’ fiscal management of maintenance repair funds.

        Job Corps Needs to Improve Timeliness of and Accountability for Maintenance Repairs at its Centers
                                                    7                        Report No. 26-13-002-03-370
                                                       U. S. Department of Labor – Office of Inspector General




Table 2: 718 Funded Not Corrected Deficiencies Outstanding More Than 1 Year
Time Outstanding		                                                                     Number of Deficiencies
1 – 2 Years		                                                                                             323
2 – 3 Years		                                                                                             209
3 – 4 Years                                                                                                95
More than 4 Years                                                                                          25
Funded Prior to May 2007                                                                                   66
Total		                                                                                                  718a
a
 101 of the 202 outstanding maintenance deficiencies identified in Table 1 were funded for repairs for more than one 

year and were included in this population.


Source: OIG analysis of Job Corps data.



Some of the deficiencies that were not corrected as required by the May 2007 directive
included rusty support beams and leaning power poles whose repairs were several
years overdue. For example:

•		 At the Delaware Valley Job Corps Center, the support beams in the main building
    were extensively rusted. This was identified as a life, safety, and health hazard,
    funded for repairs in July 2002, but remained unrepaired at the conclusion of our
    audit more than 10 years later. These deficiencies are depicted below.




Source: Images taken by OIG.

At the North Texas Job Corps Center, aging and leaning wooden power poles
endangered the safety of students and staff. These were funded for replacement in July
2008, but remained unrepaired at the conclusion of our audit more than four years later.
These deficiencies are depicted below.




     Job Corps Needs to Improve Timeliness of and Accountability for Maintenance Repairs at its Centers
                                                 8                        Report No. 26-13-002-03-370
                                                U. S. Department of Labor – Office of Inspector General




Source: Images taken by OIG.

Job Corps Maintenance Deficiency Data Was Not Always Accurate

As part of our testing, we conducted on-site work at five centers to determine the status
of uncorrected maintenance deficiencies and identify any obvious unsafe or unhealthy
maintenance conditions based on our visual observations and review of each center’s
related documentation (e.g., safety and health inspections and safety committee
meeting minutes). Using data obtained from the Job Corps’ maintenance management
system, we judgmentally selected the following five centers based on a high number of
uncorrected maintenance deficiencies, both funded and unfunded, as of the end of
FY 2011: Earle C. Clements (389); Gary (227); Woodstock (105); Edison (97); and
Delaware Valley (88). See Appendix B for a detailed description of our methodology for
site selection and on-site testing.
In aggregate, we found 18.2 percent, or 165 of the 906 maintenance deficiencies
reported as uncorrected had actually been repaired as shown in Table 3 below. Many of
the deficiencies were corrected using the centers’ operations and maintenance funds
and/or efforts to create center-led learning opportunities for its career technical skills
training (CTST) students. In many instances, the deficiencies had been corrected
several years ago, even though the data showed they were still outstanding. For
example, at Woodstock we found that nearly $400,000 in estimated deficiencies related
to deteriorated trailers used for classrooms had been corrected over one year before
September 2010 when the trailers were demolished and replaced, and another nine
deficiencies shown as outstanding that had been corrected through the use of CTST
projects in calendar year 2009. At Edison, seven critical deficiencies had been corrected
by the center as far back as calendar year 2009 through the use of center operations
funds, but had not been updated in the Job Corps’ system and showed as outstanding.
Staff at the five centers we visited told us they are only able to update the status of
funded maintenance deficiencies and do not have a process for updating the status of
unfunded deficiencies, which are most commonly completed through operations funds
and CTST projects.



     Job Corps Needs to Improve Timeliness of and Accountability for Maintenance Repairs at its Centers
                                                 9                        Report No. 26-13-002-03-370
                                                U. S. Department of Labor – Office of Inspector General



Table 3: Inaccurate Maintenance Deficiency Data
                              Actual               Corrected                          Reported
                          Outstanding           Deficiencies Not                    Outstanding
       Center            Deficiencies (%)        Reported (%)                      Deficiencies (%)
Earle C. Clements          359 (92.3%)             30 (7.7%)                         389 (100%)
Gary                       182 (80.1%)             45 (19.8%)                        227 (100%)
Woodstock                    64 (61%)               41 (39%)                         105 (100%)
Edison                       64 (66%)               33 (34%)                          97 (100%)
Delaware Valley             72 (81.8%)             16 (18.2%)                         88 (100%)
Total                      741 (81.8%)            165 (18.2%)                        906 (100%)
Source: OIG analysis of Job Corps data.

We also noted maintenance deficiencies that were not accounted for in the Job Corps
maintenance management system that related to potential unsafe and unhealthy
environments. For example:

    •		 At Gary, there was a black, mildew-like substance on the ceilings of several
        student dormitory bathrooms. The center noted these deficiencies frequently in
        its monthly inspection reports and took corrective actions to clean the ceilings,
        but these conditions persist. See images below.




        Source: Images taken by OIG.


    •		 At Earle C. Clements, we found an emergency exit door in a dormitory that could
        be opened only after repeated attempts of extreme force. The center noted
        similar maintenance deficiencies involving other emergency exit doors at another
        dormitory in its monthly inspection reports.
These conditions occurred because Job Corps did not have an effective process to
ensure maintenance deficiencies were addressed timely after they had been identified
and prioritized. Specifically, Job Corps did not place sufficient management emphasis
on:


     Job Corps Needs to Improve Timeliness of and Accountability for Maintenance Repairs at its Centers
                                                 10                       Report No. 26-13-002-03-370
                                               U. S. Department of Labor – Office of Inspector General


   •		 Establishing precise timeframes for repairing all maintenance deficiencies;

   •		 Developing and implementing criteria to ensure all maintenance deficiencies
       were classified accurately and consistently according to priority;

   •		 Monitoring and enforcing repairs for all maintenance deficiencies, especially
       critical and funded, to ensure all known unsafe and unhealthy conditions were
       repaired appropriately and timely; and

   •		 Regularly recording, tracking, and reviewing maintenance deficiency data for
       reliability.

Job Corps stated that the length of time to complete maintenance projects during the
scope of our audit was unusual given the circumstances relating to Job Corps receipt of
$250 million for construction projects in 2009 from the American Recovery and
Reinvestment Act of 2009 (ARRA), and the requirement to obligate these funds by June
30, 2010. According to Job Corps, nearly 1,000 shovel-ready construction projects were
prioritized to ARRA projects to procure and complete these projects due to the short
time frame. Furthermore, Job Corps said that maintenance projects were further
delayed because $75 million in CRA funds were unobligated and rescinded because of
the focus on ARRA.

Job Corps also told us that timeliness was also impacted, in part, by its process for
providing funding to Job Corps centers and Job Corps centers procuring the goods and
services necessary to make the repairs. The steps after deficiencies have been
identified and classified include: (1) obtaining budgetary approval for the repairs;
(2) changing the center’s fiscal operating plan; (3) modifying the center’s contract to
obligate the funds to the center; (4) procuring the goods and services necessary to
correct the deficiency; (5) correcting the deficiency; and (6) verifying the completion of
repairs. Whereas the repair time for certain maintenance deficiencies, such as fire or
smoke alarm systems that are not fully operational, could take only between 2-12 weeks
(step 5), it could take eight months to get through steps 1-4 of the process.

See Table 4 below for examples of Job Corps estimates of actual correction times for
certain deficiencies.




    Job Corps Needs to Improve Timeliness of and Accountability for Maintenance Repairs at its Centers
                                                11                       Report No. 26-13-002-03-370
                                                        U. S. Department of Labor – Office of Inspector General




Table 4: Examples of Estimated Timeframes Correcting Maintenance Deficiencies
Deficiency Type                                         Deficiency Correction                Total Correction
                                                            Time (Step 5)                    Time (Steps 1-5)
Not Fully Operational Fire Alarm System                      Up to 12 weeks                   Up to 11 months
Not Fully Operational Emergency Exit                         Up to 2 weeks                    Up to 8.5 months
Lights/Signs
Not Fully Operational Smoke Detectors                        Up to 2 weeks                    Up to 8.5 months
Replacing Damaged Exit Doors		                               Up to 4 weeks                     Up to 9 months
Not Fully Operational Sprinkler System                       Up to 4 weeks                     Up to 9 months
Source: OIG analysis of Job Corps data.

During the course of our audit, Job Corps made efforts to decrease the number of
outstanding maintenance deficiencies that were identified as of the end of FY 2011. We
reviewed Job Corps’ maintenance management system during the week of
September 3, 2012, and found Job Corps reported:

    •		 32 of 202 (15.8 percent) critical deficiencies left unrepaired for more than one
        year had been corrected, and

    •		 202 of 718 (28.1 percent) funded but not corrected deficiencies outstanding for
        more than one year had been repaired.

While these repairs helped minimize the related risks, delays to necessary maintenance
and repairs unnecessarily exposed students, staff, and visitors to potential safety and
health hazards. Consequently, we estimated $32.9 million Job Corps funded for the
maintenance and repairs, but did not use or use timely would be put to better use if Job
Corps improved its processes to ensure the timeliness of its repairs. 7




7
 $32.9 million is the aggregate of $4.3 million and $29.5 million, less $0.9 million that overlapped both amounts. See
Exhibit 2 for details.

     Job Corps Needs to Improve Timeliness of and Accountability for Maintenance Repairs at its Centers
                                                 12                       Report No. 26-13-002-03-370
                                                        U. S. Department of Labor – Office of Inspector General


Objective 2 — To what extent did Job Corps’ management of center maintenance
              ensure allocated funds were spent effectively and efficiently?

         $32.9 million should have been spent to perform intended repairs or repair
         other maintenance deficiencies within the funds’ 3-year period of
         availability.

Finding 2 — Ineffective fiscal management allowed maintenance funds to expire
            or approach expiration and deferred maintenance costs to be
            underestimated by $106.2 million.

We found $32.9 million in unused Job Corps funds expired or approached expiration
that should have been spent to perform intended repairs or repair other maintenance
deficiencies within the funds’ period of availability. Consequently, we estimated
$32.9 million would be put to better use if Job Corps improved its process for managing
maintenance repairs. Additionally, Job Corps did not accurately account for the
estimated deferred maintenance costs to repair maintenance deficiencies in the DOL’s
FY 2011 Financial Report. We estimated these costs totaled at least $202.3 million for
FY 2011, an understatement of at least $106.2 million for FY 2011. 8 These conditions
occurred because Job Corps did not place sufficient emphasis on tracking and
monitoring the status of obligated funds to ensure they were spent as intended or
appropriately reallocated to address other maintenance deficiencies.

At Least $32.9 Million in Funds for Needed Maintenance Repairs Expired or
Approached Expiration

During program years (PY) 2009-2011, Job Corps, on average, received $108.3 million
per year in appropriations to pay for its CRA activities, which included new center
construction, rehabilitation of existing centers, land acquisitions, and necessary
maintenance to keep the centers in acceptable condition. 9 Federal appropriations law
provides these funds are available only for payment of expenses properly incurred
during the period of availability or to complete contracts properly made within that period
of availability, which is three years for Job Corps CRA appropriations. 10 After this
period, the appropriated funds are considered expired. Expired funds are held for a
period of approximately five years, and can be used to liquidate obligations properly
chargeable to the account – those obligations made during the period of availability –
and to make legitimate obligation adjustments. 11 However, in general, expired funds
cannot be used to incur new obligations. At the end of this approximately eight-year
period, the balance of the expired funds are canceled and closed, which means that


8
 Job Corps reported an estimated $96.1 million in deferred maintenance and repair costs for FY 2011.


9
 Job Corps’ program year runs from July 1 to June 30. For example, PY 2009 covered the period from July 1, 2009,


to June 30, 2010. Job Corps’ CRA appropriations totaled $115 million in PY 2009; $105 million in PY 2010; and $105 

million in PY 2011, an average of $108.3 million (($115 + $105 + 105) / 3) for the three-year period.


10
   United States Code (U.S.C.), Title 31, Section 1502(a).


11
   U.S.C., Title 31, Sections 1552(a) and 1553(a). Section 1552(a) provides for the account closing and cancellation of


                                          th
any remaining balance on September 30 of the fifth fiscal year after the period of availability for obligations.



     Job Corps Needs to Improve Timeliness of and Accountability for Maintenance Repairs at its Centers
                                                 13                       Report No. 26-13-002-03-370
                                                      U. S. Department of Labor – Office of Inspector General


they are no longer available for any purpose and must be returned to general fund of
the U.S. Treasury. 12 These time periods are illustrated in Figure 1 below.

Figure 1: Time Periods for Job Corps CRA Appropriations

                                                                                   Remaining Balances
                                                                                    Canceled/Closed
     3-Year Availability                      5-Year Expired                         and No Longer
          Period                                  Period                            Available for Any
                                                                                        Purpose
                                                                                       (3 + 5 = 8)

Source: OIG analysis of requirements related to Job Corps’ CRA appropriations.

As part of our testing, we requested the status of all funded but not corrected
deficiencies as of the end of FY 2011, including the dates the deficiencies were
identified and funded for repairs, funding source (i.e., source of appropriated funds),
budgeted costs, and completion status. Based on the data Job Corps provided, we
determined whether the related funds were used for its initial intended purposes;
de-obligated, re-obligated, and used to address other maintenance deficiencies within
the funds’ periods of availability and/or expiration; or properly returned to the U.S.
Treasury. We found an estimated $9.0 million in Job Corps funds that expired and could
not be used to incur any new obligations; and $23.9 million, which Job Corps could not
provide the information needed to determine the expiration dates. 13 These funds either
expired or were approaching expiration. In total, $32.9 million should have been spent
to perform 924 intended repairs or repair other maintenance deficiencies within the
funds’ three-year period of availability. With a more effective management process for
ensuring that available funds are used appropriately before expiration, $32.9 million in
funds could have been put to better use.

An Estimated $9.0 Million in Funds Expired While Maintenance Deficiencies Remained
Uncorrected

We judgmentally selected and reviewed the status of $9.0 million, of the $32.9 million
(27.3 percent) in estimated repairs for all 149 uncorrected maintenance deficiencies that
had been funded on or prior to June 30, 2009. We determined whether these funds
expired or were used to pay for other needed repairs. 14 We found Job Corps was
unable to determine the:

     •   Source of appropriations for any of these funds (e.g., 2008 appropriations), or


12
   U.S.C., Title 31, Section 1552(a).
13
   During our audit, Job Corps conducted its own review of CRA funds to identify unspent balances on center operator
contracts that were completed prior to or during PY 2011 and allowed to expire. Job Corps found $6.25 million
expired and were no longer available for Job Corps use. In response to our draft report, ETA revised this amount and
acknowledged that Job Corps allowed approximately $15.8 million in CRA funds to be canceled and closed ($12.7
million) or expire ($3.1 million).
14
   Job Corps tracks this data by program year.

     Job Corps Needs to Improve Timeliness of and Accountability for Maintenance Repairs at its Centers
                                                 14                       Report No. 26-13-002-03-370
                                                       U. S. Department of Labor – Office of Inspector General


     •		 Current status or final disposition of the funds—whether the funds were spent for
         the obligated purpose; de-obligated; re-obligated for another maintenance
         deficiency; or re-obligated for some other purpose.

In the absence of the actual sources of the appropriated funds, we estimated the
periods of availability and expiration by using the dates the deficiencies were funded for
repairs. For example, for a project funded in PY 2008, which covered July 1, 2008, to
June 30, 2009, we calculated the periods as follows:

     •		 3-Year Availability Period covering July 1, 2008, through June 30, 2011

     •		 5-Year Expired Period covering July 1, 2011, through September 30, 2016

Consequently, it is possible that the ending dates could be two years earlier than our
assumed dates. Using this conservative approach, we found an estimated $9.0 million
relating to 149 deficiencies had expired. 15 These included:

     •		 $444,342 funded to repair the heating, ventilation, and air conditioning (HVAC)
         system at the Sierra Nevada Job Corps Center in 2005. This deficiency remained
         unrepaired as of September 30, 2011, and the funds will be canceled and closed
         and no longer available for any purpose on or about September 30, 2013.

     •		 $87,762 funded to construct a heavy equipment wash facility at the Sacramento
         Job Corps Center in 2001. This deficiency remained unrepaired as of
         September 30, 2011, and the funds canceled and closed on or about
         September 30, 2009, and should have been returned to the U.S. Treasury.

     •		 $113,167 funded to repair the cafeteria restrooms at the San Diego Job Corps
         Center in 2004. This deficiency remained unrepaired as of September 30, 2011,
         and the funds will be canceled and closed and no longer available for any
         purpose on or about September 30, 2012.

     •		 $26,250 funded to repair restrooms at the Edison Job Corps Center in 1998. This
         deficiency remained unrepaired as of September 30, 2011, and the funds
         canceled and closed on or about September 30, 2006, and should have been
         returned to the U.S. Treasury.

$23.9 Million in Funded Uncorrected Deficiencies Possibly Expired or Approached
Expiration

Job Corps also could not provide the source of funds, periods of availability, or final
disposition of funds totaling $23.9 million for 775 deficiencies funded during
PY 2009-2010 but were uncorrected as of September 30, 2011. As such, it is possible
these deficiencies were funded as early as July 1, 2007 (for PY 2009), and July 1, 2008
15
 The funds related to 15 deficiencies totaling $0.9 million canceled and closed and were no longer available for any
purpose as of September 30, 2012.

     Job Corps Needs to Improve Timeliness of and Accountability for Maintenance Repairs at its Centers
                                                 15                       Report No. 26-13-002-03-370
                                                  U. S. Department of Labor – Office of Inspector General


(for PY 2010). Absent reliable data from Job Corps, these funds could be in the expired
period or approaching expiration depending on the source of funds. For example, Job
Corps funded $200,000 for a waste water system at the Timber Lake Job Corps center
in July 2009. Absent reliable data from Job Corps detailing the source of appropriation,
the $200,000 could have been funded using appropriations from as early as PY 2007
(with a period of availability from July 1, 2007 – June 30, 2010) or from appropriations
as current as PY 2009 (with a period of availability from July 1, 2009 – June 30, 2012).
As a result, we estimated these funds were either expired or approaching expiration.

Table 5 shows that $23.9 million funded for repairs could have expired as early as
June 30, 2010, or June 30, 2011.

Table 5: Funded Not Repaired Deficiencies as of September 30, 2011
    PY               Number of              Budgeted              Period of              Period of
  Funded            Deficiencies             Costs               Availability            Expiration

  PY 2009                 226              $ 6,455,441         7/1/07 - 6/30/10        7/1/10 - 9/30/15


  PY 2010                 549              $17,466,968         7/1/08 - 6/30/11        7/1/11 - 9/30/16



   Totals                 775              $ 23,922,409
Source: OIG analysis of Job Corps’ data.


During the course of our audit, Job Corps made efforts to decrease the number of
outstanding maintenance deficiencies that were identified as of the end of FY 2011, our
testing cut-off date. We reviewed Job Corps’ maintenance management system during
the week of September 17, 2012, and found Job Corps reported:

    •		 58 of 149 (38.9 percent) deficiencies that had been funded during or prior to
        PY 2008 but not corrected, and

    •		 269 of 775 (34.7 percent) deficiencies that had been funded during
        PY 2009-2010 but not corrected had been repaired subsequent to our testing
        cut-off date.

However, given the weaknesses we described above regarding Job Corps inability to
determine the source of appropriations or current status of all of these funds, Job Corps
lacks the necessary assurance that these expired funds were properly chargeable to the
account and were not used to incur new obligations.

Job Corps Underestimated FY 2011 Deferred Maintenance and Repairs Costs by
$106.2 Million

Statement of Federal Financial Accounting Standards (SFFAS) 6, as revised by SFFAS
40, defines deferred maintenance and repairs as maintenance and repairs that were not
performed when they should have been or were scheduled to be and which, therefore,
were put off or delayed to a future period. Job Corps reported $96.1 million in deferred

     Job Corps Needs to Improve Timeliness of and Accountability for Maintenance Repairs at its Centers
                                                 16                       Report No. 26-13-002-03-370
                                                             U. S. Department of Labor – Office of Inspector General


maintenance in the DOL’s FY 2011 Financial Report, which represented the estimated
cost to return its constructed assets to an acceptable condition. We estimated these
costs totaled at least $202.3 million for FY 2011, an understatement of at least
$106.2 million for FY 2011. Job Corps stated the $96.1 million represented unfunded
maintenance and repair costs, excluding new construction, and did not include funded
deficiencies since those deficiencies were in the process of being repaired, and
therefore not being deferred. However, our work showed that Job Corps put off or
delayed to future periods hundreds of funded deficiencies. Consequently, we believe
the repair costs associated with these deficiencies were covered under SFFAS 40 and
should have been included in Job Corps’ reported deferred maintenance. Our position is
supported by SFFAS 42, effective for reporting beginning FY 2015, which specifies that
deferred maintenance and repairs should be reported regardless of whether it has been
funded or not. That is, if funding exists, but competing demands cause a slippage and
result in a delay to a future period, such costs should be reported.

Job Corps also told us it did not include deficiencies from its repair backlog in deferred
maintenance costs as those deficiencies were not defined as maintenance and repairs
during their internal classification process even though repairs of these types of
deficiencies are cited in Job Corps’ CRA budget request to the Congress as having a
direct impact on student experience and achievement.

Our analysis of Job Corps maintenance management system identified $42.6 million in
maintenance deficiencies funded and not corrected as of September 30, 2011;
$55.7 million in unfunded maintenance deficiencies from Job Corps’ repair backlog; and
$0.3 million in unfunded life safety deficiencies, each of which was incorrectly excluded
and not accounted for in Job Corps’ estimated deferred maintenance cost per
SFFAS 40. In addition to the exclusion of these amounts, the details provided by Job
Corps supported a cost estimate $7.5 million higher than the $96.1 million reported in
the DOL’s FY 2011 Financial Report. In total, what Job Corps reported did not
accurately account for $106.2 million in deferred maintenance repairs and costs. 16 See
Exhibit 1 for details. By excluding these amounts from its deferred maintenance
estimate, Job Corps did not accurately account for its maintenance needs and the
safety and health of its centers. Providing decision makers and other stakeholders (e.g.,
DOL management, the Congress, the public) with unreliable information regarding the
level of maintenance needed to ensure safety and health at Job Corps centers may
impact their ability to make informed decisions about the program.

These conditions occurred because Job Corps did not place sufficient emphasis on
tracking and monitoring the status of obligated funds to ensure they were spent as
intended or appropriately reallocated to address other maintenance deficiencies. With a
more effective management process for ensuring future repair funds are used before
expiration, we estimate that $32.9 million in funds could be put to better use.

In total, we estimated $42.1 million would be put to better use if Job Corps improved its
processes for ensuring maintenance repairs are completed timely ($32.9 million per
16
     $106.2 million = $42.6 million + $55.7 million + $0.3 million + $7.5 million (difference due to rounding).

        Job Corps Needs to Improve Timeliness of and Accountability for Maintenance Repairs at its Centers
                                                    17                       Report No. 26-13-002-03-370
                                               U. S. Department of Labor – Office of Inspector General


Finding 1) and maintenance funds are managed effectively ($32.9 million per Finding 2
less $23.7 million that overlapped results described in Finding 1). See Exhibit 2 for
details.

RECOMMENDATIONS

We recommend that the Assistant Secretary for Employment and Training require Job
Corps to:

(1) Improve management processes to ensure maintenance deficiencies are identified,
    tracked, and repaired appropriately and timely;

(2) Improve management processes related to monitoring and tracking the status of
    funds obligated for center repairs to ensure funds are used for the intended
    purposes or to address other maintenance deficiencies within the funds’ period of
    availability and/or five-year expired period;

(3) Identify and timely use, or return to the U.S. Treasury unused funds obligated for
    center repairs; and

(4) Determine and accurately report its total deferred maintenance costs and repairs in
    the DOL Financial Report for FY 2012.

We appreciate the cooperation and courtesies that Job Corps personnel extended to
the Office of Inspector General during this audit. OIG personnel who made major
contributions to this report are listed in Appendix E.




Elliot P. Lewis
Assistant Inspector General
 for Audit




    Job Corps Needs to Improve Timeliness of and Accountability for Maintenance Repairs at its Centers
                                                18                       Report No. 26-13-002-03-370
                                             U. S. Department of Labor – Office of Inspector General




Exhibits






  Job Corps Needs to Improve Timeliness of and Accountability for Maintenance Repairs at its Centers
                                              19                       Report No. 26-13-002-03-370
                                           U. S. Department of Labor – Office of Inspector General




                       PAGE INTENTIONALLY LEFT BLANK






Job Corps Needs to Improve Timeliness of and Accountability for Maintenance Repairs at its Centers
                                            20                       Report No. 26-13-002-03-370
                                                 U. S. Department of Labor – Office of Inspector General


                                                                                            Exhibit 1
FY 2011 Estimated Deferred Maintenance Costs

Job Corps reported deferred maintenance cost of $96.1 million for FY 2011 was
understated by excluding at least $106,190,352 in deferred maintenance costs, as
noted below:

Job Corps reported deferred maintenance costs for FY 2011                                $96,136,092b
(per DOL Financial Report for FY 2011)
Funded not corrected deficiencies outstanding as of the end of                           $42,649,217a
FY 2011
Job Corps repair backlog as of the end of FY 2011                                        $55,736,346a
Unfunded critical deficiencies as of the end of FY 2011                                     $337,588a
Difference between supporting detail and amount that wasn’t                               $7,467,201a
reported in the DOL Financial Report for FY 2011
Total FY 2011 Deferred Maintenance                                                      $202,326,444b
a
 Previously excluded deferred maintenance cost
Source: OIG analysis of Job Corps’ data.




     Job Corps Needs to Improve Timeliness of and Accountability for Maintenance Repairs at its Centers
                                                 21                       Report No. 26-13-002-03-370
                                           U. S. Department of Labor – Office of Inspector General




                       PAGE INTENTIONALLY LEFT BLANK






Job Corps Needs to Improve Timeliness of and Accountability for Maintenance Repairs at its Centers
                                            22                       Report No. 26-13-002-03-370
                                                U. S. Department of Labor – Office of Inspector General


                                                                                            Exhibit 2
Calculation of $42.1 Million in Funds Put to Better Use

Per Finding 1:
Critical maintenance deficiencies left unrepaired for more                                $4,297,008
than 1 Year
Maintenance deficiencies (including critical) funded for                                 $29,469,654
more than 1 year but not repaired
Less: Deficiencies identified in both populations                                          ($891,207)
Subtotal Finding 1                                                                       $32,875,455


Per Finding 2:
Funds expired                                                                             $8,991,835
Funds possibly expired or approaching expiration                                         $23,922,409
Subtotal Finding 2                                                                       $32,914,244

Less: Funds identified in both Findings 1 and 2                                        ($23,698,578)

Total                                                                                    $42,091,121
Source: OIG analysis of Job Corps’ data.




     Job Corps Needs to Improve Timeliness of and Accountability for Maintenance Repairs at its Centers
                                                 23                       Report No. 26-13-002-03-370
                                           U. S. Department of Labor – Office of Inspector General




                       PAGE INTENTIONALLY LEFT BLANK






Job Corps Needs to Improve Timeliness of and Accountability for Maintenance Repairs at its Centers
                                            24                       Report No. 26-13-002-03-370
                                            U. S. Department of Labor – Office of Inspector General




Appendices






 Job Corps Needs to Improve Timeliness of and Accountability for Maintenance Repairs at its Centers
                                             25                       Report No. 26-13-002-03-370
                                           U. S. Department of Labor – Office of Inspector General




                       PAGE INTENTIONALLY LEFT BLANK






Job Corps Needs to Improve Timeliness of and Accountability for Maintenance Repairs at its Centers
                                            26                       Report No. 26-13-002-03-370
                                                   U. S. Department of Labor – Office of Inspector General


                                                                                           Appendix A
Background

ETA oversees the Office of Job Corps, which administers and manages the Job Corps
program. Job Corps maintains 125 Job Corps centers nationwide. These facilities
comprise 99 percent of DOL real property and are used by approximately 60,000
students and 16,000 staff each year. The average age of a Job Corps facility is 42 years
old, with the oldest over 80 years old. Many center facilities were at one time
abandoned by the military or dilapidated institutional facilities that Job Corps
rehabilitated. As such, the life expectancy of these buildings is inherently shorter than
custom-built structures. Job Corps estimated it would cost $96.1 million in deferred
maintenance to return its buildings and structures (constructed assets) to an acceptable
condition, 17 and almost seven times this amount to address all of the maintenance
deficiencies in its backlog of repairs.

Maintenance deficiencies at Job Corps centers are primarily identified through condition
assessment surveys which assess and document the condition of centers once every
three years. Identified maintenance deficiencies are classified based on severity on a
scale ranging from deficiencies which address imminent life, safety, and health hazards
(class IA); deficiencies addressing code violation which do not represent imminent life,
safety, and health hazards, but may (class IIA) or may not (class IIB) have an impact on
center operations; deficiencies which address facility repair, replacement and
maintenance (class III); and deficiencies which address programmatic needs (class IV).
Class IA and IIA deficiencies are stratified by Job Corps as critical deficiencies and
proposed for immediate funding. All other deficiencies are scored and funded to the
extent funding constraints allow.

To support the facilities maintenance process, the National Office of Job Corps works
with its field network of six regional offices and engineering support contractor, PB
Dewberry. Through a staff of approximately 60 technical experts, including architects
and engineers, PB Dewberry assists Job Corps in many aspects of the facilities
management system. PB Dewberry conducts condition assessment surveys;
catalogues data and observations made during condition assessment surveys;
estimates the value of construction projects; assists in construction oversight, performs
onsite assessments to verify the completion of work; and supports Job Corps
development of the annual work plan for CRA. PB Dewberry has performed condition
assessment surveys for Job Corps since 2000.

Each year Job Corps receives approximately $105 million in CRA funds for its Job Corp
centers. CRA funds received by Job Corps in any appropriation year have a three year
period of availability with which funds can be obligated for CRA purposes. Federal
appropriations law provides the balance of an appropriation is available only for
payment of expenses properly incurred during the period of availability or to complete
contracts properly made within that period of availability (U.S.C., Title 31, Section
1502(a)). An appropriation is considered to have expired after the period when it was
17
     DOL’s FY 2011 Financial Report.

        Job Corps Needs to Improve Timeliness of and Accountability for Maintenance Repairs at its Centers
                                                    27                       Report No. 26-13-002-03-370
                                               U. S. Department of Labor – Office of Inspector General


available for new obligations has passed. If an agency does not obligate funds prior to
the expiration of the appropriation, the funds are not available to pay for new
obligations. After the three year period of availability, “expired” funds remain available
for a period of approximately five years for recording, adjusting, and liquidating properly
chargeable obligations to the account. After a total of approximately eight years (three-
year period of availability plus five-year expiration period) any remaining funds are
required to be cancelled and returned to the general fund of the U.S. Department of
Treasury.

Deferred maintenance and repairs reporting enables the government to be accountable
to citizens for the proper administration and stewardship of its assets. SFFAS 6,
effective September 30, 1997, defines deferred maintenance as maintenance that was
not performed when it should have been or was scheduled to be and which, therefore,
is put off or delayed for a future period. The definition of deferred maintenance has
since been revised by SFFAS 40, effective for periods after September 30, 2011, to
include both maintenance and repairs in deferred maintenance calculations, and again
by SFFAS 42, effective for periods after September 30, 2014, which clarifies that
deferred maintenance and repairs should include funded maintenance and repairs that
have been delayed for a future period as well as unfunded maintenance and repairs.




    Job Corps Needs to Improve Timeliness of and Accountability for Maintenance Repairs at its Centers
                                                28                       Report No. 26-13-002-03-370
                                               U. S. Department of Labor – Office of Inspector General


                                                                                       Appendix B
Objectives, Scope, Methodology, and Criteria

Objective

Our audit objectives were to answer the following questions:

    To what extent did Job Corps’ management of center maintenance ensure: (1)
    repairs were performed in a timely manner and safety and health risks were
    minimized, and (2) allocated funds were spent effectively and efficiently?

Scope

This report reflects the audit work that was generally conducted at Job Corps and ETA
headquarters in Washington, DC; Job Corps engineering support contractor (PB
Dewberry) headquarters in Arlington, VA; and five Job Corps centers – Woodstock
(Woodstock, MD); Edison (Edison, NJ); Delaware Valley (Callicoon, NY); Gary (San
Marcos, TX); and Earle C. Clements (Morganfield, KY). Our scope generally covered
Job Corps center maintenance data reported from October 1, 2008 – September 30,
2011. Our visual observations of center maintenance deficiencies were made during
center site visits made in March and April 2012.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives.

Methodology

To accomplish our audit objective, we interviewed Job Corps management and staff at
Job Corps headquarters in Washington, DC, and reviewed applicable laws, regulations,
and policies, including United States Codes and Job Corps internal policies for
classifying deficiencies, to gain an understanding of Job Corps’ requirements and
processes for identifying, classifying, reporting and funding center maintenance
deficiencies.

At Job Corps’ headquarters, we identified and evaluated Job Corps’ internal controls
over its center maintenance deficiencies. We assessed risks related to inaccurate
results and evaluated the corresponding control environment. We assessed the
reliability of related data for the applicable audit period and determined the data in Job
Corps’ center maintenance system was sufficiently reliable to accomplish our audit
objectives by: (1) performing various testing of required data elements, (2) interviewing
key Job Corps and engineering support contractor staff knowledgeable about this data,



    Job Corps Needs to Improve Timeliness of and Accountability for Maintenance Repairs at its Centers
                                                29                       Report No. 26-13-002-03-370
                                               U. S. Department of Labor – Office of Inspector General


and reviewing the relevant general and application controls. We used a non-statistical
sampling approach to select certain maintenance deficiencies to review.

Center Site Visits

We judgmentally selected five Job Corps centers to perform work at based primarily on
the number of outstanding center maintenance deficiencies at the centers, including all
classifications of both funded and unfunded maintenance deficiencies. Our
determination of the number of outstanding deficiencies at centers was based on Job
Corps databases of center maintenance deficiencies as of the end of FY 2011
(September 30, 2011).

While at the each of the five Job Corps centers, we interviewed center staff responsible
for monitoring the safety and health of centers, performing center maintenance, and
procuring goods and services for funded maintenance deficiencies, and reviewed center
standard operating procedures related to our objective to gain an understanding of
center processes.

We also obtained and reviewed Job Corps Policy Requirements Handbook (PRH)
required safety and health inspection documentation of judgmentally selected center
buildings and PRH required safety and health committee meeting documentation for the
period of February 2011 – February 2012 to review for completeness and adequacy.

Using the list of outstanding maintenance deficiencies identified prior to visiting the
center, we conducted a guided tour of center facilities with center staff knowledgeable of
center maintenance and health of areas with identified deficiencies. During our tours we
made visual observations of obvious safety and health deficiencies which were included
on our list, as well as obvious safety and health deficiencies which were not included on
our list. We also followed up and reviewed areas identified in safety and health
inspections and safety committee meetings as having maintenance deficiencies.
We provided the list of outstanding maintenance deficiencies to center management to
determine the current status of deficiencies, steps taken to abate the deficiencies, and,
if corrected, the completion date and final cost of corrective action. We used center
management’s feedback to determine gaps between data in Job Corps database and
actual conditions at centers.

Deficiency Classification

Job Corps classifies center maintenance deficiencies based on severity into the
following deficiency classification:

   •		 Class I (A) Deficiencies which address imminent life safety and health hazards.

   •		 Class II Deficiencies which address, however, do not represent hazardous life
       safety and health hazards.



    Job Corps Needs to Improve Timeliness of and Accountability for Maintenance Repairs at its Centers
                                                30                       Report No. 26-13-002-03-370
                                               U. S. Department of Labor – Office of Inspector General


       -    IIA Deficiencies which violate code (Federal, State or Local) and may result
            in an interruption of center operations if not corrected.
       -    IIB Deficiencies which violate code (Federal, State or Local) and have no
            immediate impact on center operations if not corrected.

   •		 Class III Deficiencies which address facility repair, replacement or maintenance.
       -   IIIA Deficiencies which if not corrected may result in an interruption of center
           operations.
       -		 IIIB Deficiencies which if not corrected will have minimal impact on center
           operations or can be mitigated through temporary measures until the
           deficiency is corrected.

   •		 Class IV Deficiencies which address programmatic needs.
       -   IVA Deficiencies which if corrected produce substantial improvements in the
           quality of the learning and living environment.
       -   IVB Deficiencies which if corrected are desirable enhancements.

Job Corps stratifies deficiencies classified as IA and IIA as critical deficiencies, and
deficiencies not classified as IA or IIA as non-critical.

To gain an understanding of Job Corps process for classifying deficiencies we
interviewed Job Corps National Office and Job Corps’ engineering support contractor
staff to determine how different types of deficiencies (i.e., expired exit signs,
deteriorated fire alarm systems) are commonly classified. We also reviewed deficiencies
classified by Job Corps as critical to gain an understanding of what types of deficiencies
are commonly classified by Job Corps as critical.

Using information obtained from our analysis, we reviewed all non-critical deficiencies
reported by Job Corps during FY 2009, FY 2010 and FY 2011 to determine if a
potentially critical deficiency was misclassified as non-critical.

Correcting Critical Deficiencies

In aggregate we identified 1,405 center maintenance deficiencies classified by Job
Corps as critical (i.e., classification IA or IIA) during FY 2009, FY 2010 and FY 2011.
We analyzed Job Corps database, which included identification and completion dates,
to determine if each of the 1,405 critical deficiencies were corrected within one year of
being identified.

In addition, we obtained feedback from Job Corps management and PB Dewberry on
expected timeframes for providing funding to Job Corps centers, centers procuring
services, and correcting different types of critical deficiencies critical deficiencies. Using
information obtained from Job Corps we developed expected timeframes for correcting
different types of critical deficiencies (i.e., repairing fire alarm system, replacing exit
doors) and determined if each of the 1,405 critical deficiencies were corrected within
Job Corps expected timeframes.


    Job Corps Needs to Improve Timeliness of and Accountability for Maintenance Repairs at its Centers
                                                31                       Report No. 26-13-002-03-370
                                               U. S. Department of Labor – Office of Inspector General




Correcting Funded Deficiencies

Using Job Corps database of funded not corrected (FNC) maintenance deficiencies,
including both critical and non-critical deficiencies, as of the end of FY 2011
(September 30, 2011), we identified 1,341 FNC maintenance deficiencies outstanding
as of the end of FY 2011. Using information in Job Corps database, which included the
date of funding, we determined the number of FNC maintenance deficiencies
outstanding more than one year from the date of funding.

Expending CRA Funds

CRA funds received by Job Corps through appropriation have a three year period of
availability in which Job Corps can obligate the funds for CRA purposes. After the three
year period of availability the appropriated funds are said to have expired, but have an
additional approximately five year period in which funds can be expended for their
obligated purpose. After a total of approximately eight years (three-year period of
availability plus five-year expiration period) any remaining funds are required to be
cancelled and returned to the general fund of the U.S. Treasury.

To determine if funds obligated for CRA purposes were properly obligated during their
period of availability, properly expended prior to being cancelled, and if any cancelled
funds were returned to the general fund of the Treasury, we examined all 149
maintenance deficiencies which were funded in PY 2008 or prior (i.e., funded prior to
July 1, 2009) and still outstanding as of our testing date of February 7, 2012. Our work
was focused on these deficiencies because, based on the period of availability and
period of expiration, any funds associated with these outstanding deficiencies would
either be nearing the expiration period, currently in the expiration period, or should have
been cancelled and returned to the general fund of Treasury.

Based on results of our initial testing, which identified funds which were nearing
expiration, funds which were currently in the expiration period, and funds which had
should have been cancelled and returned to the general fund of the Treasury, we
expanded our testing to include all maintenance deficiencies funded in PY 2009 or later
(i.e., funded on or after July 1, 2009) and outstanding as of September 30, 2011.




    Job Corps Needs to Improve Timeliness of and Accountability for Maintenance Repairs at its Centers
                                                32                       Report No. 26-13-002-03-370
                                                 U. S. Department of Labor – Office of Inspector General


Criteria

We used the following criteria to perform this audit:

•		 29 U.S.C. Section 2939
•		 31 U.S.C. Section 1502 and 1552 - 1553
•		 Code of Federal Regulations 638.307 and 667.107
•		 DOL Agency Financial Report
•		 Job Corps’ deficiency classification system
•		 Job Corps May 2007 funded not corrected deficiency directive
•		 Job Corps’ PRH
•		 SFFAS Nos. 6, 32, 40, and 42
•		 United States Government Accountability Office (GAO) Government Auditing
    Standards
•		 GAO Principles of Federal Appropriations Law
•		 GAO Standards for Internal Control
•		 Workforce Investment Act of 1998




      Job Corps Needs to Improve Timeliness of and Accountability for Maintenance Repairs at its Centers
                                                  33                       Report No. 26-13-002-03-370
                                           U. S. Department of Labor – Office of Inspector General




                       PAGE INTENTIONALLY LEFT BLANK






Job Corps Needs to Improve Timeliness of and Accountability for Maintenance Repairs at its Centers
                                            34                       Report No. 26-13-002-03-370
                                                U. S. Department of Labor – Office of Inspector General


                                                                                        Appendix C
Acronyms and Abbreviations

ARRA                   American Recovery and Reinvestment Act of 2009

CRA                    Construction, Rehabilitation, and Acquisition

CTST                   Career Technical Skills Training

Delaware Valley        Delaware Valley Job Corps Center

DOL                    U.S. Department of Labor

Earl C. Clements       Earl C. Clements Job Corps Center

Edison                 Edison Job Corps Center

ETA                    Employment and Training Administration

FNC                    Funded Not Corrected

FY                     Fiscal Year

Gary                   Gary Job Corps Center

GAO                    U.S. Government Accountability Office

Job Corps              Office of Job Corps

OIG                    Office of Inspector General

PRH                    Job Corps’ Policy and Requirements Handbook

PY                     Program Year

SFFAS                  Statement of Federal Financial Accounting Standards

U.S.C.                 United States Code

Woodstock              Woodstock Job Corps Center




     Job Corps Needs to Improve Timeliness of and Accountability for Maintenance Repairs at its Centers
                                                 35                       Report No. 26-13-002-03-370
                                           U. S. Department of Labor – Office of Inspector General




                       PAGE INTENTIONALLY LEFT BLANK






Job Corps Needs to Improve Timeliness of and Accountability for Maintenance Repairs at its Centers
                                            36                       Report No. 26-13-002-03-370
                                                  U.S. Department of Labor – Office of Inspector General 




                                                                                          Appendix D
ETA Response to Draft Report




18
     Report number changed to 26-13-002-03-370.

      Job Corps Needs to Improve Timeliness of and Accountability for Maintenance Repairs at its Centers 

                                                  37                       Report No. 26-13-002-03-370 

                                           U. S. Department of Labor – Office of Inspector General




Job Corps Needs to Improve Timeliness of and Accountability for Maintenance Repairs at its Centers
                                            38                       Report No. 26-13-002-03-370
                                           U. S. Department of Labor – Office of Inspector General




Job Corps Needs to Improve Timeliness of and Accountability for Maintenance Repairs at its Centers
                                            39                       Report No. 26-13-002-03-370
                                           U. S. Department of Labor – Office of Inspector General




Job Corps Needs to Improve Timeliness of and Accountability for Maintenance Repairs at its Centers
                                            40                       Report No. 26-13-002-03-370
                                           U. S. Department of Labor – Office of Inspector General




Job Corps Needs to Improve Timeliness of and Accountability for Maintenance Repairs at its Centers
                                            41                       Report No. 26-13-002-03-370
                                           U. S. Department of Labor – Office of Inspector General




Job Corps Needs to Improve Timeliness of and Accountability for Maintenance Repairs at its Centers
                                            42                       Report No. 26-13-002-03-370
                                           U. S. Department of Labor – Office of Inspector General




Job Corps Needs to Improve Timeliness of and Accountability for Maintenance Repairs at its Centers
                                            43                       Report No. 26-13-002-03-370
                                           U. S. Department of Labor – Office of Inspector General




Job Corps Needs to Improve Timeliness of and Accountability for Maintenance Repairs at its Centers
                                            44                       Report No. 26-13-002-03-370
                                           U. S. Department of Labor – Office of Inspector General




Job Corps Needs to Improve Timeliness of and Accountability for Maintenance Repairs at its Centers
                                            45                       Report No. 26-13-002-03-370
                                           U. S. Department of Labor – Office of Inspector General




Job Corps Needs to Improve Timeliness of and Accountability for Maintenance Repairs at its Centers
                                            46                       Report No. 26-13-002-03-370
                                              U. S. Department of Labor – Office of Inspector General


                                                                                      Appendix E
Acknowledgements

Key contributors to this report were Ray Armada (Audit Director); Jon K. Ling (Audit
Manager); Steven Grubb and Dr. James Turkvant (Auditors-in-Charge); and Catherine
Christian and Alexander Budge.




   Job Corps Needs to Improve Timeliness of and Accountability for Maintenance Repairs at its Centers
                                               47                       Report No. 26-13-002-03-370
TO REPORT FRAUD, WASTE, OR ABUSE, PLEASE CONTACT:

Online:		      http://www.oig.dol.gov/hotlineform.htm
Email:		       hotline@oig.dol.gov

Telephone:		   1-800-347-3756
               202-693-6999

Fax:           202-693-7020

Address:       Office of Inspector General
               U.S. Department of Labor
               200 Constitution Avenue, N.W.
               Room S-5506
               Washington, D.C. 20210
